HHS/OIG, Audit -"Review of the New York State Ryan White Comprehensive AIDS Resources Emergency Act Title II
Grant for the Period April 1, 2001 to May 31, 2002,"(A-02-03-02008)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the New York State Ryan White Comprehensive AIDS Resources Emergency Act Title II Grant for the Period
April 1, 2001 to May 31, 2002," (A-02-03-02008)
July 21, 2004
Complete
Text of Report is available in PDF format (2.98 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if the New York Department of Health (health department) met key service
delivery performance goals and complied with program requirements governing non-Federal matching funds, previous years
State expenditures for HIV-related activities, caps established for administrative, planning, and evaluation activities,
involvement of the public in the CARE Act Title II planning process, and monitoring of sub-recipients.  We found the
health department substantially met its service delivery performance goals in terms of the number of clients served and
prescriptions provided; and complied with program requirements that we tested, including non-Federal matching funds, previous
years expenditures, spending caps, public involvement; and the monitoring of sub-recipients.  Accordingly, we had
no recommendations.